CERTIFICATE OF SERVICE
NO. TBD
Sonia Garcia and Phillip Garcia
Petitioner(s)
v.
Wesley Blevins
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SONIA
GARCIA AND PHILLIP GARCIA PETITION FOR WRIT OF CERTIORARI, by mailing one (1) true and correct
copy of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Robert William Higgason
City of Houston Legal Department
900 Bagby, 3rd Floor
Houston, TX 77002
(832) 393-6481
robert.higgason@houstontx.gov
Counsel for Wesley Blevins

Lucas DeDeus

September 28, 2020
SCP Tracking: Kallinen-511 Broadway Street-Cover White

